Tel: (888) 378-2023
Fax: (818) 610-3030
www.jrzillaw.com

JOSEPH M. LOVRETOVICH
JARED W. BEILKE
NICHOLAS W. SARRIS
ERIC M. GRUZEN

LOS ANGELES
5855 TOPANGA CANYON BLVD.
SUITE 300
WOODLAND HILLS, CA 91367
TEL: (818) 610-8800
ORANGE COUNTY
2400 EAST xATELIA
SUITE 440
ANAHEIM, CA 92806
TEL: (714) 456-9176
SAN FRANCISCO
1 SANsoacE Smixr
SUITE 720
SAN FRANCISCO, CA 94104
TEL: (415) 692-3462

JENNIFER A. LIPSKI
BROOKE C. BELLAH
CATHRYN G. FUND
RUTH GEWING

JML LAW
A PROFESSIONAL LAW CORPORATION
Committed to the reptesentation of the righft of the individual

IRENE GHARAPET
KARINA GODOY
CHRISTINA R. MANALO
. BRITTANY A. PORTER
JAMES SCHMERDAUCH
ADAM J. SHERMAN
STEPHEN J. WIARD

September 26, 2019
VIA OVERNIGHT DELIVERY

Supreme Court of the United States
ATTN: Office of the Clerk
1 First Street, N.E.
Washington, D.C. 20543
RE: Our Lady of Guadalupe School v. Agnes Morrissey-Berru, No. 19-267
Motion to Extend the Time to File Opposition to Petition for Writ of Certiorari

Dear Clerk of the Supreme Court of the United States:
Pursuant to Supreme Court Rule 30.4, Respondent Agnes Morrissey-Berru
hereby applies for an extension of time of 18 days, up to and including October 18,
2019, for filing a Brief in Opposition to the Petition for Writ of Certiorari. If this
requested extension is not granted, then Respondent Morrissey-Berru's deadline for
the filing and service of her Brief in Opposition to the Petition for Writ of Certiorari
will be this upcoming Monday, September 30, 2019.

RECEIVED
OCT 1 - 2019
1

OFFICE OF THE CLERK
SUPREME COURT, U.S.

OUR LADY OF GUADALUPE CATHOLIC SCHOOL v. MORRISSEY-BERRU (NO. 19-267)
Rule 30.4 Motion to Clerk to Extend Time to File Respondent's Opposition to Petition

In support of this application for an extension of time to file the Brief in
Opposition to the Petition for Writ of Certiorari, Respondent submits the following
specific reasons that justify granting this request:
1. Respondent's Counsel's Applications for Admission to the Bar of the
Supreme Court of the United States are still pending and will not be
admitted until October 7, 2019.
Respondent's counsel from JML Law APLC (the law firm that represented
Respondent Agnes Morrissey-Berru in the underlying district court case and Ninth
Circuit appeal) are currently still pending admission to the Bar of the Supreme
Court of the United States.
Counsel requested Certificates of Good Standing from the Supreme Court of the
State of California on Monday, September 9, 2019, and received those Certificates
by mail on September 17, 2019. On that same day, September 17, 2019, the first of
three Bar Applications (for Jennifer A. Lipski, Esq.) was overnighted to the
Admissions Office for the Supreme Court of the United States, and received on
Wednesday, September 18, 2019; the other two Bar Applications (for Joseph M.
Lovretovich, Esq., and Cathryn G. Fund, Esq.) were overnighted to the Admissions
Office later that week and received on September 20, 2019.
On September 25, 2019, Ms. Lipski emailed the Admissions Office seeking an
update on the status of the three above-referenced Attorney Bar Applications. In
response, Perry Thompson from the Attorney Admissions Office responded that

2

OUR LADY OF GUADALUPE CATHOLIC SCHOOL V. MORRISSEY-BERRU (NO. 19-267)
Rule 30.4 Motion to Clerk to Extend Time to File Respondent's Opposition to Petition

"UM three applicants are approved for admission on 07 October 2019, the next date
that an order for admission will be entered by the Court." Counsel for Respondent
therefore will not be admitted to the Bar of the United States Supreme Court until
a week after the current filing deadline for the Brief in Opposition to the Petition.
Once admitted to the Supreme Court Bar, Respondent's Counsel's
applications to register for the electronic filing system are anticipated to
take at least 1-2 business days to be approved.
Only members of the Supreme Court bar can register for the Supreme Court's
electronic filing system. According to the information on the Supreme Court's
webpage of frequently-asked questions regarding the Supreme Court's Electronic
Filing System, it is expected that it will take 1-2 business days for Respondent's
Counsel's applications to register for the electronic filing system to be approved.
(See https://www.supremecourt.gov/filingandrules/faq electronicfiling.aspx.)
The attorney who handled the briefing in the underlying district court
case and the briefing and oral argument of the underlying Ninth Circuit
appeal recently left Respondent's Counsel's firm.
Andrew Pletcher was the attorney who briefed and argued the underlying
matters in this case, and September 29, 2019 was his last day working for JML Law
APLC. Although Mr. Pletcher prepared a draft of an Opposition to the Petition for
Writ of Certiorari, other counsel at JML Law APLC now need to review and finalize
the Brief in Opposition, and are still reviewing and familiarizing themselves with

3

OUR LADY OF GUADALUPE CATHOLIC SCHOOL v. MORRISSEY-BERRU (NO. 19-267)
Rule 30.4 Motion to Clerk to Extend Time to File Respondent's Opposition to Petition

the Record on Appeal and the relevant cases cited in the briefs. Therefore,
additional time is necessary in order for Respondent's Counsel to adequately review
and edit Mr. Pletcher's draft of the Brief in Opposition to the Petition to ensure that
it is accurate and complete in order to best aid the Court with determining the
appropriate outcome on the Petition for Writ of Certiorari.
4. The amount of time requested for extending the filing and service
deadline for the Brief in Opposition to the Petition is only 18 days.
Although a Petitioner has 90 days to prepare, file and serve a Petition for Writ
of Certiorari, a Respondent has only 30 days from when the case is placed on the
docket to file a Brief in Opposition to the Petition. Despite Petitioner having 90
days to file and serve its Petition, Petitioner requested (and was granted) a 30-day
extension of time to file and serve its Petition for Writ of Certiorari. Respondent
has only one-third of the time to prepare an Opposition, and is only requesting an
extension of 18 days to file her Opposition to the Petition for Writ of Certiorari.
Such a brief extension is reasonable and not prejudicial to any party.
Therefore, for the foregoing reasons, Respondent Agnes Morrissey-Berru
respectfully requests that the Clerk grant this application for an extension of time
(18 days) to and including October 18, 2019, to file and serve her Brief in Opposition
to the Petition for Writ of Certiorari, which Brief in Opposition is otherwise due on
Monday, September 30, 2019.

4

OUR LADY OF GUADALUPE CATHOLIC SCHOOL V. MORRISSEY-BERRU (NO. 19-267)
Rule 30.4 Motion to Clerk to Extend Time to File Respondent's Opposition to Petition

Dated: September 26, 2019

Respectfully submitte

JENNIFER A. LIPSKI, ESQ.
*Supreme Court Bar Application pending
JML LAW, A PROFESSIONAL LAW CORPORATION
5855 Topanga Canyon Blvd., Suite 300
Woodland Hills, California 91367
(818) 610-8800
iennifer@jmllaw.com
Counsel for Applicant,
Respondent Agnes Morrissey-Berru

5

No. 19-267

IN THE

6upreme Court of the Uniteb iptatei;
OUR LADY OF GUADALUPE SCHOOL,

Petitioner,
v.
AGNES MORRISSEY-BERRU,

Respondent.
AFFIDAVIT OF SERVICE

I HEREBY CERTIFY that on September 26, 2019, one (1) copy of the
APPLICATION FOR EXTENSION OF TIME TO FILE RESPONDENT'S
BRIEF IN OPPOSITION TO PETITION FOR WRIT OF CERTIORARI in the
above-captioned case was served on all parties required to be served, pursuant
to U.S. Supreme Court Rule 29.5(c), on the following, as indicated below:
Served in hard copy by third-party commercial carrier (FedEx) to the following
counsel of record for the parties at the addresses indicated below, and also
served by electronic transmission to the below email addresses:
ERIC RASSBACH, ESQ.
THE BECKET FUND FOR RELIGIOUS LIBERTY
1200 New Hampshire Ave., NW
Suite 700
Washington, D.C. 20036
(202) 955-0095
erassbach@becketlaw.org
Counsel of Record for Petitioner, Our Lady of Guadalupe School

WILLIAM J. HAUN, ESQ.
SHEARMAN & STERLING LLP
401 9th Street, N.W.
Suite 800
Washington, D.C. 20004
(202) 508-8056
william.haun@shearman.com

Counsel of Record for Amicus Curiae,
National Catholic Educational Association

All parties required to be served as of this date have bee

ye

Wm)
JE IFER . LIPSKI
JML LAW, APLC
5855 Topanga Canyon Blvd., Suite 300
Woodland Hills, CA 91367
(818) 610-8800
Jennifer@jmllaw.com

Sworn to and subscribed before me on this

'2AP day of September 2019.

A notary public or other officer completing this certificate verifies only the
idetitity of the individual who signed the document to which this certificate
is attached, and not the truthfulness, accuracy, or validity of that document.
State of California
teemly of. fea

r
ill
%iiittottAibeit "and sivorn to (or
affirmed) before me on this

«Ira
Lc

bei:r2011.bv

Zip

ame of Officer]: Gla,prit:o dvate2- lefiatixNOTARY PUBLIC
My commission expires: to/o4 /2-0 11

day

tit fer

xi*

• proved to me orithe basis '
of satisfac ory=eyidence to• be the'pei•soncif who appeared before me.

Signature

(Seal)

CLAUDIA JUAREZ-ROCHA
Notary Public - California
z
Los Angeles County
Commission # 2129098
My Comm. Expires Oct 4, 2019

